BECKER GALLAGHER

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Briefs and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Jonna Corporation dba Premier Recycling
Company v. City of Sunnyvale, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent Next Day Service and e-mail to the following
parties listed below, this 23rd day of May, 2019:
Anne B. Miller
Leone & Alberts
2175 N. California Boulevard
Suite 900
Walnut Creek, CA 94596
(925) 974-8600
AMiller@leonealberts.com
Counsel for Respondent
John Douglas Moore
Counsel of Record
1999 Harrison St., 18th Fl.
Oakland, CA 94612
(510) 893-6300
jrnoorearecyclelaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 23, 2019.

bnika

Donna J. Wci
Becker Gallagher Lega Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

2- 3 7d1,

Notary Pi lic
[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

